U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 9, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Renado Smith, et al. v. United States of America,
S.CtNo. 19-361

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
18, 2019, and placed on the docket on September 18, 2019. The government's response is due
on October 18, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 18, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-036 1
SMITH, RENADO, ET AL.
USA

MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
1 E. BROWARD BLVD.
SUITE 1100
FT. LAUDERDALE, FL 33301
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5600
NEAL.KATYAL@HOGANLO YELLS .COM
ALBERT Z. LEV1N
ALBERT Z. LEVIN, P.A.
COURTHOUSE CENTER
40 N.W. 3RD STREET
SUITE 200
MIAMI, FL 33128
DANIEL WOOFTER
GOLDSTEIN & RUSSELL, P.C.
7475 WISCONSIN AVE.
SUITE 850
BETHESDA, MD 20814
202-362-0636
DHWOOFTER@GOLDSTEINRUSSELL.COM

